Supreme Court, U.S.
FILED

No.

21-5189

JUN 2 * 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

G>art)

— PETITIONER

(Your Name)
vs.

felOrW U3:IKa/wSj t+.cA — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

App£a\ & <fer VW
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(po-r^i UaAfrtr
(Your Name)

P.0. 6>t>x

1023

(Address)

flUfantlX. XL. LI&S2
(City, State, Zip Code)

(oin\ m-ttoffaWh
(Phone Number)

9

C\rco/J-

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
DC All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

X ft
B

Questions for the Supreme Court
1. Did granting a Summary Judgment violate my Seventh Amendment rights to a trial by jury as
this was my request and my constitutional right as a US Citizen who filed a suit of Common Law,
with a value exceeding twenty dollars?

2. If Summary Judgments aren't unconstitutional, why has the Seventh Amendment never
been ratified to eliminate this constitutional right of US Citizens?
3. Should Summary Judgments be a way for an attorney to win over a Pro Se due to a
fundamental misunderstanding of the rules of Civil Procedure? In my case, both lower courts
stated I didn't completely follow the Rules of Civil Procedures and due to this misunderstanding
of how to put a Summary Judgment response together, the lower courts used the defendants'
evidence and testimony and disregarded mine.

4. Once a Summary Judgment is granted, should that automatically eliminate all evidence of
the case not entered into the Summary Judgment?

5. Should a Pro Se always lose in a Summary Judgment against an attorney due to technical
errors that eliminates the Pro Se’s evidence and factual arguments of their case?
6. Is a genuine issue of material fact, a fact that if in favor of a plaintiff or defendant can cause
a jury to rule in their favor, be a fact that should defeat a motion for summary judgment?
7. Should one genuine issue of material fact such as failing to grant me proper Procedural Due
Process, be enough reasoning for the District Court to deny a motion for summary judgment
and allow a case to go to a trial by jury?
[1]

8. Should the United States District Court Judge have granted a motion for summary judgment
after a court date for trial had already been set?

9. If an attorney who has been given all of the evidence through disclosure and discovery
doesn’t think they can win a lawsuit in a trial by jury, should a Summary Judgment allow them
to terminate a case before a trial by jury?

10. Can a Procedural Due Process violation should be enough to defeat a motion for summary
judgment and allow a case to proceed to trial?

11. When a plaintiff proves a defendants Affidavit has lies within the text and the plaintiff has
proved those lies to be untrue, should the lower court allow the defendants to retract their
statement in a sworn Affidavit and still review other facts within the same Affidavit as factual?
12. 24 CFR §982.554(b){l) states that an informal hearing can’t be conducted by any persons
other than the one who made or approved the decision under review. Can the Executive
Director that approved the termination of my assistance, qualify as a proper informal hearing
officer by Law which is a direct statute violation?

13. If 24 CFR 1982.554(b)(1) is violated and proven to be violated through evidence, should the
lower court have allowed this informal hearing to be approved in terminating a participants
housing voucher? Would this also violate a participants Procedural Due Process?
14. If a Housing Authority adopts laws through the United States Housing of Urban
Development (HUD) called their Administrative Plan as required, and the Housing Authority

(2]

fails to follow procedural steps that were crucial to completing an investigation, would this
violate a participants Procedural Due Process?

15. How many Procedural Due Process violations should a lower court allow before denying a
motion for summary judgment?

16. Can the lower Courts allow a Housing Authority to terminate a disabled participants'
voucher for Fraud, when Fraud by its own definition wasn't committed? To Commit Fraud, you
must have financial or personal gain, and in my evidence, I have shown I received exactly what I
was entitled to through the program, and not a penny more.

17. Does me taking out a loan and giving the money to my son to purchase a house for himself
and him paying the loan off monthly, constitute my ownership of the property as the
defendants and both Lower Courts claim?

18. Does demanding a totally disabled housing participant get a Dr.'s note to validate a
reasonable accommodation request, even though that participant had already been granted a
reasonable accommodation on the program previously, constitute disability discrimination
under section 504 of the Fair Housing Act?

19. Should a lower court allow an attorney to eliminate questions proposed for a deposition of
their defendants, but not grant a plaintiff the same equalities? The lower court allowed the
defendants to reduce 131 questions I wrote for a deposition of a defendant, down to 9
questions. Those 9 questions weren't relevant to major fact finding, which in turn prevented
me from obtaining a deposition from a key witness.

[3]

20. Does the Eleventh Amendment provide (HUD) employee's immunity from lawsuits? The
United States District Court wouldn't accept my lawsuit until I removed Ben Carson and
Amanda Motyka, both HUD employee's, from my lawsuit.

21. Should violating two Constitutional rights, Seventh and Fourteenth Amendments, be
enough for my case to be reviewed?

[4]

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

TABLE OF CONTENTS

5

TABLE OF AUTHORITIES

6

OPINIONS BELOW

9

JURISDICTION

10

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

11

STATEMENT OF THE CASE

12

REASONS FOR GRANTING THE PETITION

24

CONCLUSION

25

PROOF OF SERVICE

26

[5]

TABLE OF AUTHORITIES

CASES

FEDERAL

Goldberg v. Kelly, 397 U.S. 254, 266-71 (1970)

16

Trafficante v. Metro. Life ins., 409 U.S. 205, 209 (1972)

21

Curtis v. Loether, 22 111.415 U.S. 189, 94 S. Ct. 1005, 39 L. Ed. 2d 260 (1974)

22

Chauffeurs Local 391 v. Terry, 494 U.S. 558 (1990)

22

Feltner v. Columbia Pictures Television, Inc., 523 U.S. 340 (1998)

23

Beacon Theatres, Inc. v. Westover, 359 U.S. 500 (1959) 252 F.2d 864 reversed

23

STATE

Mattoon Community Unit School District No. 2 v. Illinois Educational Labor Relations Board, 193

III. App.3d 875, 881 (1990)

14

Springwood Associates v. Health Facilities Planning Board, 269 Hi. App. 3d 944, 948 (1995).... 14
Trettenero v. Police Pension Fund, 333 III. App. 3d 792, 799 (2002)

16

Miles v. Housing Authority, 2015IL App (lst)(1}37).

15

[6]

Business & Professional People for the Public Interest v. Illinois Commerce Comm'n, 146 III. 2d

175, 240-41 (1991)

15

Department of Central Management Services/lllinois Commerce Comm'n v. Illinois Labor
Relations Board, 406 III. App. 3d 766, 771 (2010)

15

United Disposal of Bradley, Inc. v. Pollution Control Board, 363 III. App. 3d 243, 251 (2006)... 15
Cnty. of Cook v. Wells Fargo & Co., 115 F. Supp. 3d 909,915-18 (N.D. III. 2015)

21

CONSTITUTIONS

U.S. Const. Amend. VII

22

U.S. Const. Amend. XIV.

14

STATUTES AND RULES

24 C.F.R. § 982.516(a)(3)(H)

12

24 C.F.R. § 982.555(c)(2)(i)

17

24 CFR § 982.555(e)(4)(i)

18

Fair Housing Act of 1968 42 U.S.C. §§ 3601-19

20

2015 HACC Administrative Plan Rule 19.5

15

2015 HACC Administrative Plan Rule 19.6

15

2015 HACC Administrative Plan Rule 17.6

21
[7]

OTHER AUTHORITIES

Robinson v. District of Columbia Housing Authority, 660 F. Supp. 2d 6, 20 (D.D.C. 2009)

16

Jones v. Lansing Housing Comm'n, No. 5:03-CV-123, 2003 WL 26118817, at *6 (W.D. Mich. Sept.
19, 2003)

17

Driver v. Housing Authority, 713 N.W.2d 670, 676 (Wis. Ct. App. 2006)

17

Crowe v. Henry, 115 F.3d 294, 296 (5th Cir. 1997)

19

Spokeo, Inc. v. Robins, 136 S. Ct. 1540,1547 (2016)

21

Weeks Marine, Inc. v. Fireman's Fund Ins. Co., 340 F.3d 233, 235 (5th Cir. 2003)

19

[8]

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
DO For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[XI is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

&

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

f. &3

to

JURISDICTION
For cases from federal courts:
The date on which the United States Court of Appeals decided my case
Was
______
IKl No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

03

Constitutional and Statutory Provisions Involved
Seventh Amendment: "In Suits at common law, where the value in controversy shall exceed
twenty dollars, the right of trial by jury shall be preserved, and no fact tried by a jury, shall be
otherwise re-examined in any Court of the United States, than according to the rules of
common law."
Fourteenth Amendment: "All persons born or naturalized in the United States and subject to
the jurisdiction thereof, are citizens of the United States and of the State wherein they reside.
No State shall make or enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal protection
of the laws."
2015 HACC Administrative Plan Rule 19.5: "If the HACC determines that an allegation may be
true, further investigation will be undertaken. The HACC will discuss the allegation (or details
thereof) with the Head of Household or family members by scheduling an appointment at the
appropriate HACC office. At the conclusion of the investigative review, HACC will determine
whether a violation has occurred, a violation has not occurred, or if the facts are inconclusive. If
it is determined that a program violation has occurred, the HACC will review the facts to
determine:
0The type of violation (procedural, non-compliance, fraud);
0 Whether the violation was intentional or unintentional;
0 What amount of money (if any) is owed by the family; and,
0 If the family is eligible for continued occupancy."
2015 HACC Administrative Plan Rule 19.6: "Once a program violation has been documented,
HACC will take the appropriate action including proposed termination of assistance and other
legal action as described in this plan."
24 C.F.R. § 982.516(a)(3)(H): "a PHA must obtain third-party verification of all family assets
*
every 3 years".

24 C.F.R. § 982.555(c)(2)(i): "Contain a brief statement of reasons for the decision,"
24 CFR § 982.555(e)(4)(i): 'The hearing may be conducted by any person or persons
designated by the PHA, other than a person who made or approved the decision under review
or a subordinate of this person."

[11]

Fair Housing Act of 1968 42 U.S.C. §§ 3601-19: "individuals filing a complaint have one year
from the last date of the alleged discrimination to file a complaint."

Statements of Case
I was approved a housing choice voucher and a reasonable accommodation for a 2nd
bedroom in 1993 through the Housing Authority of Champaign County {Hereinafter - HACC). I
had my voucher from 1993 through 2015 with no problems and never an issue.

On April 19, 20041 took out a loan from CitiFinancial and gave the money to my son to
purchase a property in Covington, IN. My son was 22 years old and had no established credit
and wasn't able to get the loan for himself. After I secured the loan and gave my son the
money to purchase this house for himself, he and I wrote up a document that stated he would
pay the loan monthly and would be responsible for maintaining the loan. I also contacted my
then caseworker at the HACC and informed her of this transaction. She stated that was
completely legal and no different than me taking out a loan to buy a car for my kids as a lot of
parents do this. She also stated that I need to make sure I put the house in my sons' name so
the HACC wouldn't count this as my asset. The house was put in my sons' name (Gary Hatter
Jr.) once he purchased the house using the money from the loan. Furthering the evidence to
support her statement is 24 C.F.R. § 982.516(a)(3)(H) "a PHA must obtain third-party verification
of all family assets every 3 years". Since my caseworkers in 2007, 2010 & 2013 didn't question
this loan on my credit report when they ran their verifications as required by law, then what my
2004 caseworker stated as fact, seemed correct. I have stated I didn't own a real estate
[12]

property every year since 2004 and none of these required by law verifications were ever
brought up as incorrect.

Then in 2015, the new Deputy Director of the HACC decided she would tell me if I
didn't get another reasonable accommodation, I was going to be forced to move in to a 1bedroom apartment. When I confronted Gloria Williams with the question of why I needed to
get a new reasonable accommodation when I was already approved, and I have been a fully
disabled person since 1979 which means my status of needing the extra bedroom will not
change, Williams told me she was the boss and the HACC was putting all single participants in 1bedroom units. Gloria Williams even asking for me to get a new reasonable accommodation
approved by a doctor, was the first disability discrimination that I encountered.
On June 23rd, 2015 Gloria Williams claims she pulled my credit report due to the HACC
receiving a tip that I didn't live in my apartment. The interesting thought of this was I met with
Gloria Williams, just the day before on June 22nd, for my recertification, and she never
mentioned any accusations of me not living in my apartment.

June 24th, 2015 Gloria Williams received the aforementioned loan agreement from
CitiFinancial for a mortgage on a house in Indiana. Gloria Williams didn't follow the rules in the
2015 HACC Administrative Plan rule 19.4,19.5 or 19.6 as required by law because she neglected
to discuss any issues about this house with me, Head of Household, prior to proposed
termination and avoided discussing anything with my son to try and find out if there was
anything that was illegally done. "Administrative agencies must generally follow their own rules
as written, without making ad hoc exceptions or departures from these rules when

[13]

adjudicating. Mattoon Community Unit School District No. 2 v. Illinois Educational Labor
Relations Board, 193 III. App. 3d 875, 881 (1990). "When an administrative agency has adopted
rules and regulations under its statutory authority for carrying out its duties, the agency is
bound by those rules and regulations and cannot arbitrarily disregard them." Springwood
Associates v. Health Facilities Planning Board, 269 III. App. 3d 944,948 (1995). In summary, the
HACC's failure to comply with its own administrative plan removed my procedural safeguard
relied upon by tenants like me and resulted in a deprivation of my due process. Gloria Williams
never requested or attempted to talk to my son who owns this house, ever. The HACC violated
my due process rights within the Fourteenth Amendment of the United States Constitution "nor
shall any State deprive any person of life, liberty, or property, without due process of law."
Between June 22nd and June 29th, Gloria Williams researched my recertification
documentation and ultimately approved my recertification on June 29th, 2015. During this
investigation, Williams received the mortgage loan documents (June 24th) and my
recertification documents (June 22nd) which stated I didn't own real estate and even though
this seemed like a discrepancy (HACC claims I lied on my form), Williams still approved my
recertification on June 29th, 2015.

July 13th, 2015 Gloria Williams sent me a letter stating I was being terminated due to
having a mortgage loan and lying on my recertification forms. She had both of these
documents prior to approving my recertification on June 29th. This was a definite example of
the retaliation I faced. Gloria Williams approved me for not doing anything wrong, then 2
weeks later she proposed termination for the same thing she had already approved me with.

[14]

As a side note, if I didn't live in my apartment, I wouldn't have received this letter in the mail
that was sent to my apartment.

Williams proposed termination of my Housing Choice Voucher on July 13, 2015, without
following proper procedural due process as outlined in the 2015 HACC Administrative Plan rules
19.4,19.5 & 19.6. "Pursuant to HUD regulations, HACC was required to establish an
administrative plan for its program (24 C.F.R. § 982.54(a) (2013)) and to "administer the
program in accordance with [its] administrative plan" (24 C.F.R. § 982.54(c) (2013)). Miles v.
Housing Authority, 2015 ILApp (lst)(1}37). Rule 19.5 states "If the HACC determines that an
allegation may be true, further investigation will be undertaken." Rule 19.5 Interviews with
Head of Household or Family Members section says, "The HACC will discuss the allegation (or
details thereof) with the Head of Household or family members by scheduling an appointment
at the appropriate HACC office". This interview was never scheduled and never happened. This
interview process is supposed to be conducted and reviewed and if after it is determined that a
violation occurred, then the HACC determines the following:
1) The type of violation (procedural, non-compliance, fraud)
2) Whether the violation was intentional or unintentional.
3) What amount of money (if any) is owed by the family, and
4) If the family is eligible for continued occupancy
Only after all of this was completed, then Rule 19.6 applies which allows the HACC to act
including proposed termination of assistance. If Gloria Williams would have performed a proper
investigation and followed the 2015 HACC Administrative Plan's procedural due process as the
law requires, then I would have never been proposed termination. "An administrative agency
cannot ignore its own rules once they have been established." Business & Professional People
for the Public Interest v. Illinois Commerce Comm'n, 146 III. 2d 175, 240-41 (1991); Department
of Central Management Services/Illinois Commerce Comm'n v. Illinois Labor Relations Board,
406 III. App. 3d 766, 771 (2010); United Disposal of Bradley, Inc. v. Pollution Control Board, 363
III. App. 3d 243, 251 (2006). "In accordance with HUD requirements, the housing authority

[15]

adopted a written administrative plan that established policies for administration of the
program." (Gould v. Housing Authority of The City of Augusta.)

The lower Court is allowing the HACC to violate 24 C.F.R. § 982.54 to terminate my
housing choice voucher. The HACC terminating my voucher illegally violated my rights under
the Fair Housing Act of 1968 42 U.S.C. §§ 3601-19 and Title II of the Americans with Disabilities
Act of 199042 U.S.C. §§ 12131-12165 and constitutes Disability Discrimination.
I contend the HACC violated my due process rights by failing to provide me with proper
notice required under federal law before terminating my participation in the HCV Program.

Participants in programs such as the HCV Program enjoy a property interest in
continued occupancy of subsidized housing, which constitutes a statutory entitlement subject
to procedural due process protections. See Robinson v. District of Columbia Housing Authority,
660 F. Supp. 2d 6, 20 (D.D.C. 2009). 'The essence of procedural due process is meaningful
notice and a meaningful opportunity to be heard." Trettenero v. Police Pension Fund, 333 III.
App. 3d 792, 799 (2002). In Goldberg v. Kelly, 397 U.S. 254, 266-71 (1970), the United States
Supreme Court outlined procedural due process requirements of a pretermination hearing
involving welfare benefits: (1) timely and adequate notice detailing the reasons for termination;
(2) an opportunity to appear at the hearing, present evidence and oral argument, and confront
and cross-examine adverse witnesses; (3) the right to be represented by counsel; (4) a right to a
decision rendered by an impartial decisionmaker; (5) a right to have that decision based solely
on rules of law and evidence presented at the hearing; and (6) a right to a statement by the

[16]

decisionmaker, setting forth the reasons for the decision and the evidence upon which it was
based.

Following Goldberg, the federal government promulgated rules in accordance with the
Court's decision. See 55 Fed. Reg. 28538, 28541 (July 11,1990) ("PHAs must adopt written
informal pretermination hearing procedures for participants, which fully meet the
requirements of Goldberg v. Kelly"). The Federal Code provides in relevant part that a PHA may
terminate a participant's Section 8 benefits if the family violates any family obligations under
the program (24 C.F.R. § 982.552(c)(l)(i) (2006)). However, prior to any hearing for termination,
the PHA must provide the family with "prompt written notice/' containing a "brief statement of
reasons for the decision." 24 C.F.R. § 982.555(c)(2)(i) (2008). Although the Federal Code does
not discuss the amount of information that must be contained in the "brief statement," courts
have found that "the notice must, at the very least, inform the resident of the situation so that
he can make an intelligent response." Jones v. Lansing Housing Comm'n, No. 5:03-CV-123, 2003
WL 26118817, at *6 (W.D. Mich. Sept. 19, 2003).

The purpose of the written notice is " 'to inform the tenant of the allegations so that I
can prepare a defense.'" Driver v. Housing Authority, 713 N.W.2d 670, 676 (Wis. Ct. App. 2006)
(quoting Edgecomb v. Housing Authority, 824 F. Supp. 312, 314 (D. Conn. 1993)). The notice
must be " 'sufficiently specific ... to enable [the tenant] to prepare rebuttal evidence to
introduce at my hearing appearance.'" Edgecomb, 824 F. Supp. at 315 (quoting Billington v.
Underwood, 613 F.2d 91,94 (5th Cir. 1980)). In order to effectively rebut adverse evidence at
the hearing, the notice must alert the tenant of the nature of this evidence. Driver, 713 N.W.2d
at 676. "A notice that does not indicate the nature of the proscribed acts or when the acts were
[17]

committed is insufficient" Jones, 2003 WL 26118817, at *6 (citing Edgecomb, 824 F. Supp. at

315).
A review of the HACC's first and only termination letter (proposed) clearly revealed that
they failed to comply with the notice requirements of the Federal Code regulations or the
Supreme Court's mandate in Goldberg. The proposed termination letter merely alleged that the
petitioner "failed to report an asset."

Without any information such as the dates on which the alleged fraud occurred or any
calculations or underlying data, petitioner could not have known how to prepare rebuttal
evidence to introduce at my hearings or to adequately defend against the claims and
allegations asserted against me by the HACC. Due process "requires such information in order
for the tenant to adequately prepare for the hearings and to understand what factors
motivated the final decision, particularly where more than one potential ground for
termination exists." Id. at 680. In sum, the HACC violated the my due process rights by failing to
provide me with proper notice required under federal law before terminating my participation
in the HCV Program, especially since the HACC violated my due process rights by failing to
inform me of my Formal Hearing and terminated me when it was being delayed by the HACC.
On July 22nd, I filed for an informal hearing as 24 CFR § 982.555 states I am entitled too.
Little did I know when I had my informal hearing on August 3, 2015, that Edward Bland
(Executive Director of the HACC & the final approver of my termination) would be the informal
hearing officer. 24 CFR § 982.555(e)(4)(i) 'The hearing may be conducted by any person or
persons designated by the PHA, other than a person who made or approved the decision under

[18]

review or a subordinate of this person." Edward Bland being the informal hearing officer,
violates the aforementioned Code of Federal Regulations which once again violated my
procedural due process. One procedural due process violation should be enough to defeat a
motion for summary judgment. A factual "issue is material if its resolution could affect the
outcome of the action." Weeks Marine, Inc. v. Fireman's Fund Ins. Co., 340 F.3d 233, 235 (5th
Cir. 2003). "A factual dispute is 'genuine/ if the evidence is such that a reasonable [trier of fact]
could return a verdict for the nonmoving party." Crowe v. Henry, 115 F.3d 294, 296 (5th Cir.

1997).
I filed a discrimination case with HUD on August 7th, 2015 after it seemed like I was in
the process of being terminated by corruption and lies created by Gloria Williams and Edward
Bland. August 24th, 2015 Amanda Motyka with HUD sent Edward Bland a letter informing the
HACC that I filed a discrimination case with them. August 26th, 2015 Edward Bland sent
communication with me that my formal hearing would be delayed until the conclusion of
Amanda Motyka's investigation. Knowing this fact, I began looking for a specialist to do a neck
surgery that I had to have. I found a specialist doctor in Houston, Texas to perform my surgery
and we scheduled this surgery for October 2015. I contacted Gloria Williams at the HACC on
September 1st, 2015 to let her know that I would be receiving this neck surgery and staying
with my son for a few weeks for recovery. I informed her that I would be leaving for Texas on
September 28th, 2015.

The important part of these dates are the fact that on September 30, 2015 Gloria
Williams sent correspondence to my apartment (I didn't have this apparent letter in my mailbox
when I returned home on November 12, 2015) that stated my formal hearing was scheduled for
[19]

October 14, 2015. The HACC made no attempt to inform me of this formal hearing being
scheduled. I believe this is due to not wanting me to have the opportunity to present my case
to a neutral 3rd party. When you couple this decision by Gloria Williams and Edward Bland to
hold this hearing before HUD's investigation was concluded, as the HACC had already informed
me that they would do, you can see why I would have never expected this hearing to be held.
These facts are all within documents submitted in my Summary Judgment Response, yet even
with another procedural due process violation to add to the previously mentioned due process
violations, Summary Judgment was still granted by the lower Court and upheld through the
Court of Appeals.

The only reasoning Gloria Williams has given for breaking the agreement to not
schedule my formal hearing until the conclusion of HUD’s investigation, was that she contacted
HUD/FHEO and someone there told her to proceed with scheduling the hearing. HUD was the
organization on August 24th, 2015 that requested the HACC not terminate my voucher until
HUD concluded the investigation. Also, furthering my proof is the fact that the Fair Housing Act
of 1968 42 U.S.C. §§ 3601-19 states "individuals filing a complaint have one year from the last
date of the alleged discrimination to file a complaint." The statement that HUD would tell the
HACC to break an agreement they made with me, when HUD was the organization investigating
the HACC for wrongdoing, is completely absurd. One would have to ask why HUD would now
change that request and say to proceed? I would think that the lower Court judge would at
least want to see some sort of proof from the HACC that this contact was made with HUD. A
letter? A phone call? An email? Nothing. This was once again a situation where the lower
Court judge took Gloria Williams on her word even with the absence of common sense to the
[20]

statement in question. This formal hearing was my only and last chance to prove my case to a
neutral 3rd party, and I was stripped of this hearing due to corruption and a negligent lack of
communication from the HACC and its employees. Notifying me of this hearing is required by
the 2015 HACC Administrative Plan Rule 17.6 "Notification of Hearing".

The Fair Housing Act states retaliation is illegal. "It is illegal to retaliate against any person for
making a complaint..." The evidence shows that I filed this discrimination complaint with HUD
in August 2015 against Williams and the HACC, and just one month later Williams is making a
false claim about the FHEO/HUD telling her to proceed with scheduling my Formal Hearing.
Gloria Williams took advantage of knowing I was getting much needed treatment for a
condition that required a specialist that I found in Houston, Texas because no one else could
figure out what was going on medically with me. The lower Court completely disregarded the
Fair Housing Act and allowed Gloria Williams and the HACC to discriminate against me by
terminating my Housing Choice Voucher.

Based on Supreme Court cases from the 1970s, the Article III approach provides that
standing to sue under the FHA is coextensive with Article III of the Constitution. Trafficante v.
Metro. Life Ins., 409 U.S. 205, 209 (1972). To have Article III standing, plaintiffs (whether
individuals or entities like a corporation or municipality) merely need to allege (1) that they
have been injured, (2) that the defendant caused the injury, and (3) that a favorable judicial
decision would likely redress the injury. Spokeo, Inc. v. Robins, 136 S. Ct. 1540,1547 (2016). This
is a fairly low bar that most plaintiffs have little difficulty clearing. The "zone of interests"
interpretation of the FHA is of a more recent vintage with its origins in Supreme Court decisions
from the past five years. Cnty. of Cook v. Wells Fargo & Co., 115 F. Supp. 3d 909, 915-18 (N.D.
III. 2015). When the HACC terminated my voucher illegally without following the steps in the
2015 HACC Administrative Plan, this caused me "injury" by kicking me out of my apartment and
leaving me homeless. Gloria Williams, Edward Bland and the HACC caused this injury by
"wrongfully terminating" my housing choice voucher without proper due process which would
have allowed me and the HACC to have an interview to get the truth of the matters they
addressed. I know if I would have been afforded this opportunity as I am legally awarded in the
2015 HACC Administrative Plan, the HACC wouldn't have proposed termination and this "injury"
could have been avoided. Since the HACC didn't follow their own 2015 HACC Administrative
[21]

Plan, the HACC caused this "injury" to me. The third element of Article III of the Constitution is
proven that a favorable judicial decision would redress this injury by allowing me to either
regain my HCV on the program and/or allow me to have a residence and no longer be
homeless.
If the HACC illegally terminated me, they violated the Department of Justice by taking
away my reasonable accommodation which is disability discrimination. They violated Section
504 of the Rehabilitation Act and they violated the Fair Housing Act, all of which is
discrimination, all because the HACC wanted to show their abuse of power by picking on and
illegally accusing a disabled/Handicap person of fraud and illegally taking away all of my rights.
The Seventh Amendment of the United States Constitution supports denying the Motion
for
Summary Judgment and the lower courts should have denied this motion on the grounds that
this case is a pure example of a case protected by the laws within the Amendment. I asked for
my case to be a trial by jury and the motion was granted. However, my Constitutional rights
were violated when the lower court judge decided to take matters into his own hands and
grant this unconstitutional document known as a Motion for Summary Judgment. This
Summary Judgment deeply restricted my evidence due to a lack of understanding that only
information within the Summary Judgment Response could be used in further proceedings in
my case if the Motion for Summary Judgment was granted. I believe this is why Summary
Judgments have been challenged and overturned after being determined that this judgment is
unconstitutional in nature and is a way to not afford petitioners the opportunities given to
them within the U.S. Constitution’s Seventh Amendment. The defense team saw the
abundance of evidence I presented within my disclosure and discovery and knew that my lack
of understanding of a Summary Judgment could critically eliminate a majority of my testimony
and evidence in the lower courts. Curtis v. Loether, 22 111.415 U.S. 189, 94 S. Ct. 1005, 39 L. Ed.
2d 260 (1974) M[t]he Seventh Amendment applies to actions enforcing statutory rights, and
requires a jury trial upon demand, if the statute creates legal rights and remedies, enforceable
in an action for damages."
Chauffeurs Local 391 v. Terry, 494 U.S. 558 (1990) "The District Court denied the
motion, and the Court of Appeals affirmed, holding that the Seventh Amendment entitled
respondents to a jury trial on their claim for monetary relief." Justice Marshall delivered the
opinion of the Court with respect to Parts I, II, lll-B, and IV, concluding that the Seventh
Amendment entitles respondents to a jury trial. Pp. 494 U.S. 563-564,494 U.S. 570-574.
I believe that a nonbiased jury will see the corruption that led to me being illegally
terminated from my housing choice voucher. A jury of my peers would see the financial
(22]

torment that this has caused leaving me homeless for the last 6 years of my life as an elderly,
fully disabled citizen. Feltner v. Columbia Pictures Television, lncw 523 U.S. 340 (1998) "...there
is clear and direct historical evidence that juries...set the amount of damages awarded to a
successful plaintiff. Pp. 353-355." "Thomas, J., delivered the opinion of the Court, in which
Rehnquist, C.J., and Stevens, O'Connor, Kennedy, Souter, Ginsburg, and Breyer, JJ., joined."
Jury trials have been reasoned as a reasonably fair way for a Pro Se to have the
opportunity to defeat large corporations and highly skilled attorneys. Federal Courts have
proven to rely on trial by juries due to the factfinding history of high-class cases in the United
States. Beacon Theatres, Inc. v. Westover, 359 U.S. 500 (1959) 252 F.2d 864 reversed. Mr.
Justice Black delivered the opinion of the Court sighting Dimick v. Schiedt, 293 U.S. 474,293 U.S.
486. "Maintenance of the jury as a factfinding body is of such importance and occupies so firm
a place in our history and jurisprudence that any seeming curtailment of the right to a jury trial
should be scrutinized with the utmost care."

The Motion for Summary Judgment should have been denied which would have allowed
my case to proceed with all of my evidence and proof that will show to a jury of my peers that I
was wrongfully terminated and should be compensated for these unlawful actions of the HACC
and its employees.

[23]

REASONS FOR GRANTING THE PETITION
I challenge the code of federal regulations rules that the HACC violated when filing a
proposed termination of my housing choice voucher. Gloria Williams violated my procedural
due process by disregarding safeguards that HUD had inserted in the Code of Federal
Regulations within the section of Federal Housing. Gloria Williams, Edward Bland and the HACC
can't win this lawsuit with the violations that have been committed against me. Housing
Authorities should be held to the highest standard especially dealing with disabled participants
and have to be held accountable for allowing these due process safeguards to be neglected.
If the HACC is allowed to violate their own Administrative Plan which is their
organizational law book and this continues to hold up in court as reasonable, then this sets
forth for future occurrences that rules and regulations don't need to be followed.

I have outlined in my case that my procedural due process was violated more than 3
times and yet I have had to resort to pleading my case to this court. No individual, right or
wrong, should be subject to having their constitutional rights violated on multiple occasions.
Violating my Due Process rights violates my Fourteenth Amendment rights. When coupled with
the lower courts violating my Seventh Amendment rights in not allowing my case to go to a trial
by jury as requested, I have now had two United States Constitutional rights violated against
me, and yet I am still not getting my day in court.

Participants in programs such as the HCV Program enjoy a property interest in
continued occupancy of subsidized housing, which constitutes a statutory entitlement subject
to procedural due process protections. See Robinson v. District of Columbia Housing Authority,
[24]

660 F. Supp. 2d 6, 20 (D.D.C. 2009). "The essence of procedural due process is meaningful
notice and a meaningful opportunity to be heard." Trettenero v. Police Pension Fund, 333 III.
App. 3d 792, 799 (2002).

CONCLUSION
For the foregoing reasons, petitioner requests the Court grant the petition for a writ of
certiorari.
Respectfully Submitted,

77
Dated:

zoz (

[25]

